TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 The Savings Used to Recommend Reducing
                 Toll-Free Telephone Hours of Operation Are
                        Not As Significant As Projected



                                      September 21, 2006

                              Reference Number: 2006-40-169




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            September 21, 2006


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Savings Used to Recommend Reducing
                             Toll-Free Telephone Hours of Operation Are Not As Significant As
                             Projected (Audit # 200640028)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) plans to
 reduce the toll-free telephone hours of operation and the projected savings as a result of that
 reduction. This audit was mandated by a law that stated none of the Fiscal Year (FY) 2006 funds
 appropriated or otherwise made available to the IRS were to be used to reduce taxpayer services
 until the Treasury Inspector General for Tax Administration completes a study detailing the
 impact of proposed reductions on taxpayer compliance and services.1

 Impact on the Taxpayer
 Each year, millions of taxpayers call the IRS toll-free telephone lines to seek assistance in
 understanding the tax law and meeting their tax obligations. As part of a cost-reduction strategy,
 in FY 2006, the IRS planned to reduce its daily toll-free telephone hours of operation from
 15 hours to 12 hours. Reducing the number of hours taxpayers are able to reach the IRS through
 the toll-free telephone lines could reduce costs; however, the savings are not as significant as the
 IRS projected. While the IRS could save approximately $914,000, approximately 2.5 million
 taxpayers (6 percent of the total FY 2005 volume) could be affected by a reduction in the number
 of hours they can obtain assistance through the toll-free telephone system.




 1
  The Transportation, Treasury, Housing and Urban Development, the Judiciary, the District of Columbia, and
 Independent Agencies Appropriations Act, Pub. L. No. 109-115, 119 Stat. 2396 (2005). Department of Defense
 Appropriations Act, Pub. L. No. 109-148, 119 Stat. 2680 (2005).
                                 The Savings Used to Recommend Reducing
                                  Toll-Free Hours of Operation Are Not As
                                          Significant As Projected



Synopsis
Our analysis of the data the IRS used to make its decision to
reduce toll-free telephone operating hours shows a savings of
                                                                    Savings expected from
approximately $18 million, or 410 Full-Time Equivalents           reducing toll-free telephone
(FTE),2 for FY 2004. While the IRS used the most current           hours of operation should
data available at the time the original analysis was performed,     have been re-calculated
current data indicate the savings potential would be              when updated data became
considerably less. Using FY 2005 data, the most current                     available.
complete data available at the time of this review, we
determined the savings potential would be considerably less,
approximately $914,000 or 20 FTEs. The savings are reduced because the IRS implemented
cost-saving measures and realized efficiency gains after FY 2004. In addition, there were minor
errors in the FY 2004 calculations, and the expected savings were not recalculated when
FY 2005 data became available.
The IRS could not provide adequate documentation to support its decision to reduce hours.
Therefore, we could not duplicate or validate many of the assumptions used. In addition, some
of the documentation provided contained minor errors.
Additionally, steps were not taken to document the project’s purpose, methodologies, or
assumptions or to validate the data. While the IRS did conduct research over the Internet to
determine posted hours of operation for several public and private organizations and did call
several of them to question the assistors about their operating hours, the IRS did not contact
management of those organizations to determine how or why those hours were selected. The
IRS also did not pilot the reduction in toll-free telephone hours to test the validity of the
assumptions or obtain taxpayer feedback. For example, it did not conduct focus groups to
determine caller preferences or the impact that changing the hours would have on taxpayers.
At the request of Congress, the IRS, in consultation with the National Taxpayer Advocate and
the IRS Oversight Board, is to conduct a 5-year study to focus on individual taxpayers and
practitioner services and the associated delivery channels. The IRS has initiated the 5-year
study, called the Taxpayer Assistance Blueprint, and will attempt to capture varying perspectives
on customer services and develop informed and feasible yet creative approaches to address
service delivery challenges. Phase 1 of this study was completed and the report delivered to
Congress on April 24, 2006. The IRS reports that Phase 2 is on target for completion in
October 2006. We believe the results of the Taxpayer Assistance Blueprint should be considered
when making a major business decision significant to taxpayer services.


2
 An FTE is a measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable
days in a particular fiscal year. For FY 2006, 1 FTE is equal to 2,080 staff hours.
                                                                                                                 2
                                       The Savings Used to Recommend Reducing
                                        Toll-Free Hours of Operation Are Not As
                                                Significant As Projected


There is a risk that Assistor Availability3 could be adversely affected if taxpayers’ calling
patterns do not occur proportionally throughout the day, as the IRS projected. However, we
believe this risk is lessened because of the knowledge and experience of the staff of the Joint
Operations Center and their recent history of managing taxpayer calls. Due to insufficient data,
neither the IRS nor we are able to determine the impact that changing hours would have on
taxpayer compliance.

Recommendations
If the IRS decides to change toll-free telephone hours of operation, we recommended that, before
proceeding with the change, the Commissioner, Wage and Investment Division, update the
proposal with the most current data available and provide the updated information on the
proposal as well as the associated cost savings to external stakeholders. The Commissioner
should also complete the Taxpayer Assistance Blueprint before taking any action to change
toll-free telephone hours, so taxpayer preferences and needs can be taken into consideration.
Finally, complete documentation should be maintained to support significant business decisions,
particularly those affecting taxpayer services.

Response
The Commissioner, Wage and Investment Division, agreed with our recommendations. If the
decision is made to change the toll-free telephone hours of operations, the proposal will be
updated with the most current data available to determine the savings and customer impact.
However, before making any changes to the toll-free telephone hours, taxpayer preferences
identified by the Taxpayer Assistance Blueprint will be considered. In addition, complete
documentation to support significant decisions will be maintained. However, the Commissioner
did not agree with our outcome measure, stating that the assumptions used had changed for
FY 2005. Management’s complete response to the draft report is included as Appendix VI.

Office of Audit Comment
We used the IRS methodology to determine the savings projected from reducing toll-free
telephone hours of operation; however, we updated the calculations using the most current
data available. The IRS could not provide us with complete documentation of all assumptions
used; therefore, we could not completely duplicate the methodology the IRS used. In addition,



3
    Assistor Availability is the amount of time that assistors are idle or available to answer calls.


                                                                                                        3
                             The Savings Used to Recommend Reducing
                              Toll-Free Hours of Operation Are Not As
                                      Significant As Projected


during the audit, the IRS did not provide us with any new data to support that the assumptions
had changed or what the new assumptions would be.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




                                                                                                 4
                                       The Savings Used to Recommend Reducing
                                       Toll-Free Telephone Hours of Operation Are
                                              Not As Significant As Projected




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Productivity and Efficiency Gains Realized in Fiscal Year 2005
          Reduced Projected Savings...........................................................................Page 3
          The Internal Revenue Service Could Not Provide Adequate
          Documentation to Support All Assumptions and Estimates Used in Its
          Decision to Reduce Toll-Free Telephone Hours of Operation .....................Page 5
                    Recommendations 1 through 3:...........................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Outcome Measure ................................................................Page 13
          Appendix V – Comparison of Select Performance Measures
          for the 2003–2006 Filing Seasons.................................................................Page 14
          Appendix VI – Management’s Response to the Draft Report ......................Page 16
      The Savings Used to Recommend Reducing
      Toll-Free Telephone Hours of Operation Are
             Not As Significant As Projected




           Abbreviations

FTE     Full-Time Equivalent
FY      Fiscal Year
IRS     Internal Revenue Service
W&I     Wage and Investment
                                  The Savings Used to Recommend Reducing
                                  Toll-Free Telephone Hours of Operation Are
                                         Not As Significant As Projected




                                             Background

As part of a cost-reduction strategy, in Fiscal Year (FY) 2006, the Internal Revenue Service
(IRS) planned to reduce its daily toll-free telephone hours of operation from 15 hours to
12 hours. Currently, taxpayers can call the toll-free telephone lines and reach an assistor from
7 a.m. to 10 p.m. local time. The recommendation was to change the hours taxpayers can reach
an assistor to 8 a.m. to 8 p.m. local time. The IRS reported that reducing the hours and
restricting a caller to local time zones would allow the IRS to eliminate approximately
410 Full-Time Equivalents (FTE),1 which would save approximately $20 million.2 The IRS had
planned to implement the new toll-free telephone operating hours in October 2005 and briefed
the National Treasury Employees Union about the reduction on June 7, 2005.
However, due to concerns raised by the National Treasury Employees Union and the
National Taxpayer Advocate over the proposed closing of several Taxpayer Assistance Centers3
nationwide, Congress enacted legislation on November 30, 2005,4 restricting the IRS from
reducing taxpayer services until the Treasury Inspector General for Tax Administration had
completed a study of the proposed changes. Congress further defined a reduction of taxpayer
service to include limiting available hours of telephone taxpayer assistance on a daily, weekly,
and monthly basis to those levels in existence during October 2005.5 Therefore, the IRS did not
reduce its toll-free telephone hours during the 2006 Filing Season,6 and we initiated a review of
the IRS data used to support the proposed reduction in hours.




1
  An FTE is a measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable
days in a particular fiscal year. For FY 2006, 1 FTE is equal to 2,080 staff hours.
2
  The IRS calculated savings of approximately $18.4 million but rounded this figure to $20 million in its proposal to
reduce toll-free telephone hours.
3
  Taxpayer Assistance Centers are local IRS offices where taxpayers can obtain face-to-face assistance with tax
matters.
4
  The Transportation, Treasury, Housing and Urban Development, the Judiciary, the District of Columbia, and
Independent Agencies Appropriations Act, Pub. L. No. 109-115, 119 Stat. 2396 (2005).
5
  Department of Defense Appropriations Act, Pub. L. No. 109-148, 119 Stat. 2680 (2005).
6
  The period from January through mid-April when most individual income tax returns are filed.
                                                                                                             Page 1
                                 The Savings Used to Recommend Reducing
                                 Toll-Free Telephone Hours of Operation Are
                                        Not As Significant As Projected



Each year, millions of taxpayers call the IRS toll-free
                                                                                     During FY 2005,
telephone lines to seek assistance in understanding the tax                   10,614 IRS customer service
law and meeting their tax obligations. These calls involve                       representatives (called
tax law and other related tax account questions on refunds,                    assistors) at 25 call centers
balance-due billing activity, and changes to the amount of                   located throughout the United
tax owed.                                                                        States and Puerto Rico
                                                                            answered over 33.3 million calls
The Accounts Management function and Joint Operations                                  to the IRS.7
Center have overall responsibility for the IRS’ tax account
and tax law toll-free telephone services. The Accounts Management function oversees the
assistors in the call sites. The Joint Operations Center serves as the central control organization
for all of the IRS’ toll-free telephone call routing. It uses intelligent call management software to
control and route calls to call sites and assistors who are available to answer the calls.
Because of the complexity of the tax law and the need to serve millions of taxpayers with tax
questions, the IRS divides the types of questions commonly received on the toll-free telephone
lines into categories called “applications.” Each application is staffed with a group of assistors
that have received specialized training to assist taxpayers with specific tax issues. For example,
if an individual taxpayer calls to find out where to mail a tax return, the call would be routed to
an assistor who has been trained to handle IRS procedural issues for individual taxpayers. If a
taxpayer calls to find out the tax due on a business account, the call would be routed to an
assistor who handles balance-due questions for the business taxpayer.
This review was performed in the Customer Account Services function and the Joint Operations
Center of the Wage and Investment (W&I) Division in Atlanta, Georgia, during the period
January through June 2006. Certain information needed to evaluate the IRS’ process and
validate the data used to recommend a reduction in toll-free telephone operating hours was not
available. These matters are discussed in further detail in the Results of Review section. With
the exception of these impairments, the audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




7
 These calls were made to the suite of 16 telephone lines the IRS refers to as “Customer Account Services
Toll-Free.”
                                                                                                            Page 2
                             The Savings Used to Recommend Reducing
                             Toll-Free Telephone Hours of Operation Are
                                    Not As Significant As Projected




                                Results of Review

Productivity and Efficiency Gains Realized in Fiscal Year 2005
Reduced Projected Savings
Our analysis of the data the IRS used to make its decision to reduce toll-free telephone operating
hours shows a savings of approximately $18 million, or 410 FTEs, for FY 2004. While the IRS
used the most current data available at the time the original analysis was performed, current data
indicate the savings potential would be considerably less. Using FY 2005 data, the most current
complete data available at the time of this review, we determined the savings potential from
reducing toll-free telephone hours of operation would be considerably less, approximately
$914,000 or 20 FTEs.
The savings are reduced because the IRS implemented cost-saving measures and realized
efficiency gains after FY 2004. In addition, there were minor errors in the calculations used to
estimate the FY 2004 savings, and the expected savings were not recalculated when FY 2005
data became available.
Since FY 2003, taxpayers have reduced the number of call attempts to the toll-free telephone
lines, and the IRS has reduced the number of FTEs budgeted for the toll-free telephone
operations. In FY 2005, the IRS reduced FTEs by approximately 400, even though it did not
reduce the hours of operation. Figure 1 illustrates the decline in FTEs planned and actually used
for FYs 2003–2005, as well as the continued decline in call attempts.




                                                                                           Page 3
                                    The Savings Used to Recommend Reducing
                                    Toll-Free Telephone Hours of Operation Are
                                           Not As Significant As Projected



                                    Figure 1: Comparison of FTEs for
                                              FYs 2003–2005

                                  9,000.00                                 120,000,000
                                  8,800.00                                 100,000,000




                                                                                                   Attempts
                                  8,600.00




                                                                                               Attempts
                                                                           80,000,000
                           FTEs




                                  8,400.00
                          FTEs




                                                                           60,000,000
                                  8,200.00




                                                                                          CallCall
                                                                           40,000,000
                                  8,000.00
                                  7,800.00                                 20,000,000
                                  7,600.00                                 0
                                             2003      2004       2005
                                                    Fiscal Year
                                               FTEs Scheduled
                                               FTEs Actual
                                               Number of Call Attempts
                      Source: The IRS Enterprise Telephone Data Warehouse.

In FY 2005, the IRS was more efficient and answered more calls per FTE compared to FY 2004.
Assistor Availability, which measures the amount of time that assistors are idle or available to
answer calls, positively declined 43 percent, from 9.9 percent in FY 2004 to 5.6 percent in
FY 2005. When Assistor Availability is low, assistors’ time is being productively used and the
cost of providing toll-free telephone services decreases.
To further increase efficiency and reduce taxpayer burden, in FYs 2005 and 2006, the IRS
planned to combine 16 toll-free telephone applications into 8 larger Agent Groups.8 Combining
applications improves the customer experience because it helps reduce the need to transfer
callers with multiple questions on related issues. It may also reduce the length of time callers
have to hold before speaking with assistors. The Accounts Management function refined
telephone scripts in 2005 and 2006 to help customers successfully navigate to the right resource
based on the menu selection made and will continue to refine these scripts. These changes could
result in more effective use of assistor resources and would help further reduce taxpayer burden
and frustration.
Additionally, the IRS took other cost-saving actions, such as closing the Chicago, Illinois, and
Houston, Texas, toll-free telephone call sites. These sites had been slated for closure since the
1990s; therefore, the IRS had not filled vacancies for employees that retired, transferred, or
otherwise left. Closing these two offices was invisible to callers and had little impact on

8
 Toll-free telephone assistors who are grouped together according to the tax topics they are responsible for
answering.
                                                                                                               Page 4
                                  The Savings Used to Recommend Reducing
                                  Toll-Free Telephone Hours of Operation Are
                                         Not As Significant As Projected



customer service. The volume of calls handled by these 2 sites was less than 1 percent of the
total calls received and could easily be absorbed by the remaining call sites.

The IRS has experienced slight declines in certain measures over the last two
filing seasons
The IRS stated that being unable to reduce the toll-free telephone hours of operation from
15 hours to 12 hours a day while trying to maintain the same Level of Service9 was not without
additional costs. The Customer Account Services function’s planning assumptions called for
reducing toll-free telephone operating hours from 15 hours to 12 hours–requiring fewer IRS
assistors to staff the telephones. When the reduction in operating hours was not implemented,
the expected savings were restored and used to increase overtime to answer the telephones. In
addition, resources used to answer paper correspondence were diverted to the toll-free telephones
lines. This allowed the IRS to meet its 2006 Filing Season Level of Service goal.
Calls answered per FTE declined by approximately 7 percent in the
2006 Filing Season. In addition, assistors took longer to complete calls,
more calls were blocked, and more taxpayers abandoned calls.10
However, callers waited less time to speak with an assistor (measured
by the IRS as the Average Speed of Answer). See Appendix V for a
table comparing select measures for the 2003–2006 Filing Seasons.
The complexity of callers’ issues has contributed to the length of time it
takes to complete a call. The complexity of calls answered by assistors is expected to continue to
increase as more of the simple calls are routed to automated services (such as “Where’s My
Refund”), alternative language services are expanded, and assistors handle topics previously
referred to Compliance function personnel.

The Internal Revenue Service Could Not Provide Adequate
Documentation to Support All Assumptions and Estimates Used in Its
Decision to Reduce Toll-Free Telephone Hours of Operation
Although the data used to recommend a reduction in toll-free telephone operating hours were
generally valid, the IRS could not provide adequate documentation to support all assumptions
and estimates. In addition, the IRS used estimates when actual figures were available, and the
documentation used to promote the reduction in toll-free telephone hours of operation contained
inaccuracies.

9
 Level of Service is the IRS’ primary measure of providing taxpayers with access to a live assistor.
10
  A blocked call is one that cannot be connected immediately because either no circuit is available at the time the
call arrives (the caller receives a busy signal) or the system is programmed to block calls from entering the queue
when there are more callers waiting to speak to a live assistor than a predefined threshold (the caller receives an
announcement to call back at a later time).
                                                                                                              Page 5
                                  The Savings Used to Recommend Reducing
                                  Toll-Free Telephone Hours of Operation Are
                                         Not As Significant As Projected



We were unable to duplicate or validate all assumptions and estimates because the IRS was
unable to provide sufficient documentation for the data it used to calculate the potential cost
savings and support the recommendation. For example:
•    There was little or no documentation to support that taxpayers would call back proportionally
     throughout the day or that 8 a.m. to 8 p.m. would be the most efficient time period with the
     least adverse impact on taxpayers. We could not validate these assumptions, although we do
     not believe they are unrealistic. The IRS stated it projected the calling patterns for a
     reduction in hours using the knowledge and information gained in FY 2001 when it changed
     the toll-free telephone hours of operation from 24 hours to 15 hours a day. However, if calls
     are not received as anticipated, there is a risk that insufficient staff will be available to
     answer the calls and taxpayers will either have to call back or experience increased hold time.
•    Estimates were used to calculate the $45,000 salary cost and the 45 percent overhead rate to
     determine the FTE savings. We could not duplicate or validate these FY 2004 figures.
•    There was no documentation to support that the IRS had analyzed yearly and peak week call
     volume data for all call sites for FYs 2002–2003 to obtain a baseline for analysis. The IRS
     acknowledged documentation was not available but stated it had analyzed the data and
     decided to include only the 2004 analysis in the documentation and decision-making process.
     Systemic changes to the toll-free telephone operations made FY 2002 data incomplete, and
     both FYs 2002 and 2003 were incompatible with subsequent years. The IRS stated these
     data were not included because they would have skewed the results.
Additionally, steps were not taken to:
•    Document the project’s purpose, methodologies, or assumptions. The IRS stated that
     reducing toll-free telephone hours was one of several recommendations resulting from the
     project to consolidate the Small Business/Self-Employed and the W&I Divisions’ Customer
     Account Services functions. The two functions merged into one function under the
     W&I Division. One of the objectives of the consolidation was to identify efficiencies within
     the organization after the merger. Therefore, the IRS stated that general project
     documentation guidelines did not apply to the recommendation to reduce toll-free telephone
     hours.
•    Validate the data.
     o Formulas in the spreadsheets contained minor errors.
     o The calculation used to determine the night differential11 was inaccurate; however, it did
       not significantly affect the projected FY 2004 savings.


11
  Night differential is the additional salary paid as incentive for regularly scheduled work performed between
6:00 p.m. and 6:00 a.m.
                                                                                                             Page 6
                                The Savings Used to Recommend Reducing
                                Toll-Free Telephone Hours of Operation Are
                                       Not As Significant As Projected



     o The information in the white paper12 and Microsoft PowerPoint® presentation the IRS
       used to promote its recommendation to reduce toll-free telephone hours of operation was
       not accurate. For example, the documents incorrectly stated the number of hours
       taxpayers can reach an IRS toll-free telephone assistor. The PowerPoint presentation
       stated taxpayers can currently reach an assistor 18 hours a day. The white paper stated
       taxpayers could actually reach an assistor 19 hours a day.
            Current operational hours are from 7 a.m. to 10 p.m. (central time zone), and
            are not limited [to] a caller’s local time zone. This means that a caller could
            actually reach an IRS agent from 5 a.m. to 1 a.m.
         Since October 2001, toll-free telephone hours of operation have been from 7 a.m. to
         10 p.m. local time. This means a caller is already limited to his or her local time and can
         reach an IRS assistor only 15 hours a day. Therefore, the IRS was reducing the hours of
         operation from 15 hours to 12 hours, not 18 hours or 19 hours to 12 hours a day.
•    Contact other agencies to obtain best practices. The IRS did conduct research over the
     Internet to determine posted hours of operation for several public and private organizations.
     The IRS also called several of the telephone numbers listed on those Internet sites and
     questioned the assistors about their operating hours. However, no contact was made with the
     management of those organizations to determine how or why those hours were selected.
•    Pilot the reduction in toll-free telephone hours to test the validity of the assumptions. The
     IRS stated it would be very difficult to implement a pilot to test proposed changes due to the
     intricacies of scheduling and difficulties in advertising the pilot.
•    Did not obtain taxpayer feedback. For example, the IRS did not conduct focus groups to
     determine caller preferences or the impact that changing the hours would have on taxpayers.
     At the request of Congress, the IRS is currently conducting a 5-year study (the Taxpayer
     Assistance Blueprint) to better define taxpayers’ preferences.
•    Determine the number of taxpayers potentially affected. IRS documentation estimated
     approximately 7 percent of the calls received on the toll-free telephone lines are received
     during the hours of operation that were to be eliminated. When asked, the IRS responded
     that it maintains data on the number of services provided but not on the number of calls
     received. Therefore, it could not provide data on the number of taxpayers that would be
     affected by the change in hours.
     After discussions with the IRS, we obtained the data for and attempted to validate the
     7 percent figure and determine the number of taxpayer calls made outside the 8 a.m. to 8 p.m.
     hours in FY 2005. Approximately 2.5 million calls (6 percent) of the 42.6 million call

12
 Undated document prepared by an IRS contractor to report the recommendations, entitled “Toll Free Reduction in
Operating Hours.”
                                                                                                       Page 7
                             The Savings Used to Recommend Reducing
                             Toll-Free Telephone Hours of Operation Are
                                    Not As Significant As Projected



   attempts were received on the Customer Account Services function toll-free telephone lines
   outside the 8 a.m. to 8 p.m. hours.
The IRS stated that personnel in the Joint Operations Center and others involved in the proposal
to reduce operating hours have vast knowledge of and experience with the toll-free telephone
operations and are generally able to calculate program trends, patterns, and milestones fairly
accurately. There are no specific guidelines to follow when making major business decisions.
For example, there are no guidelines requiring them to document the decision-making process or
prepare a business case for such decisions.
Although we have found the Customer Account Services function’s planning process for the
toll-free telephone operations is generally effective and the function does a good job of
monitoring the toll-free telephone operations, it is still sound business practice to document and
validate business decisions that significantly affect taxpayers and customer service. Without
documentation, the results, recommendations, and decisions cannot be validated.
                             Using a more systematic approach would have alleviated many of
                             the concerns and issues identified. Conducting a pilot to gauge
                             taxpayers’ reactions or focus groups to determine taxpayers’ needs
                             and desires would decrease the risk that the reduction in hours could
                             negatively affect taxpayers and achievement of the IRS’ goals and
                             measures. In addition, had documentation been created and retained
                             to support the IRS’ decision to reduce the toll-free telephone
                             operating hours, we would not have had to recreate the data as well
                             as validate it. The time it took to accomplish this delayed the IRS in
                             implementing final decisions about reducing toll-free telephone
                             hours of operations.
At the request of Congress, the IRS, in consultation with the National Taxpayer Advocate and
the IRS Oversight Board, is to conduct a 5-year study to focus on individual taxpayers and
practitioner services and the associated delivery channels. The IRS has initiated the 5-year
study, called the Taxpayer Assistance Blueprint, and will attempt to capture varying perspectives
on customer services and develop informed and feasible yet creative approaches to address
service delivery challenges. Phase 1 of this study was completed and the report delivered to
Congress on April 24, 2006. The IRS reports that Phase 2 is on target for completion in
October 2006.
Although the IRS may save costs by reducing the toll-free telephone operating hours, neither we
nor the IRS have sufficient data to determine the number of taxpayers that would be affected or
the impact this change would have on compliance. The FY 2005 data show a savings of
$914,000 would affect those taxpayers that made the 2.5 million calls outside the 8 a.m. to 8 p.m.
hours of operation. However, the IRS must decide how this savings corresponds to the IRS’
budget and taxpayer assistance goals, including taxpayers’ needs and desires.

                                                                                            Page 8
                            The Savings Used to Recommend Reducing
                            Toll-Free Telephone Hours of Operation Are
                                   Not As Significant As Projected



Given the importance of the Taxpayer Assistance Blueprint in determining how best to meet
taxpayer needs and preferences, we believe no action should be taken to change toll-free
telephone hours of operation until the Taxpayer Assistant Blueprint is completed and can be
incorporated into the decision-making process.

Recommendations
The Commissioner, W&I Division, should:
Recommendation 1: Complete the Taxpayer Assistance Blueprint before taking any action to
change toll-free telephone hours, so taxpayer preferences and needs can be taken into
consideration.
Recommendation 2: Update the proposal with the most current data available if the decision
is made to change toll-free telephone hours of operation and provide the updated information on
the proposal, as well as the associated cost savings, to external stakeholders before proceeding
with any changes to the toll-free telephone hours.
Recommendation 3: Ensure complete documentation is maintained to support significant
business decisions, particularly those affecting taxpayer services.
       Management’s Response: The Commissioner, W&I Division, agreed with our
       recommendations. Before making any changes to the toll-free telephone hours, the IRS
       will review taxpayer preferences as identified by the Taxpayer Assistance Blueprint. If
       the decision is made to change the toll-free telephone hours of operations, the proposal
       will be updated with the most current data available to determine the savings and
       customer impact. In addition, complete documentation to support significant decisions
       will be maintained. However, the Commissioner did not agree with our outcome
       measure, stating that the assumptions we used for our calculations had changed for
       FY 2005.
       Office of Audit Comment: We used the IRS methodology to determine the savings
       projected from reducing toll-free telephone hours of operation; however, we updated the
       calculations using the most current data available. The IRS could not provide us with
       complete documentation of all assumptions used; therefore, we could not completely
       duplicate the methodology the IRS used. In addition, during the audit, the IRS did not
       provide us with any new data to support that the assumptions had changed or what the
       new assumptions would be.




                                                                                          Page 9
                             The Savings Used to Recommend Reducing
                             Toll-Free Telephone Hours of Operation Are
                                    Not As Significant As Projected



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the IRS’ plans to reduce the toll-free
telephone hours of operation and the projected savings as a result of that reduction. To
accomplish this objective, we:
I.     Determined and assessed the process used by the Customer Account Services function
       supporting the decision to reduce toll-free telephone hours of operation. We interviewed
       IRS officials and the independent contractor involved in the project and reviewed all
       available documentation supporting the recommendation to reduce toll-free telephone
       hours.
II.    Determined concerns stakeholders had with the proposed reduction in toll-free telephone
       hours. We reviewed the web sites for Congress, the National Treasury Employees Union,
       and the National Taxpayer Advocate for any documentation related to the reduction. We
       also interviewed an official in the National Taxpayer Advocate’s office.
III.   Determined if the methodology and data used to support the proposal were accurate, were
       sound, and provided consistent results. We reviewed the analysis and documentation for
       FY 2004 provided by the IRS and, because the data were not provided for the analysis of
       FYs 2002 and 2003, extracted and reanalyzed the data for those years. We also extracted
       and analyzed the data for FY 2005, the most current year for which data were available.
       We compared the projected savings using various alternative hours of operation,
       calculated the average salary and overhead costs, and compared this information to the
       figures used by the IRS. We also consulted with a statistician to determine if the
       formulas and structure of the IRS methodology were sound and logical.
IV.    Attempted to determine the potential effect the reduction might have on taxpayers. We
       used call volume data provided by the IRS to calculate the number of calls received
       during the hours that were planned to be eliminated. We validated the data by verifying
       the record count, querying the data received to determine that only those calls with call
       disposition codes indicating that calls were routed to assistors were received, reviewing
       data fields of the records received, and discussing any discrepancies with Treasury
       Inspector General for Tax Administration Office of Information Technology personnel
       and IRS officials.
V.     Assessed the potential impact on customer service of closing the Chicago, Illinois, and
       Houston, Texas, call sites.



                                                                                              Page 10
                          The Savings Used to Recommend Reducing
                          Toll-Free Telephone Hours of Operation Are
                                 Not As Significant As Projected



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
Sharon Shepherd, Lead Auditor
Jackie Forbus, Senior Auditor
Jean Bell, Auditor
Jerry Douglas, Auditor
Patricia Jackson, Auditor
Joseph Butler, Information Technology Specialist
Jeffrey Williams, Information Technology Specialist




                                                                                   Page 11
                          The Savings Used to Recommend Reducing
                          Toll-Free Telephone Hours of Operation Are
                                 Not As Significant As Projected



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:SA




                                                                                 Page 12
                                 The Savings Used to Recommend Reducing
                                 Toll-Free Telephone Hours of Operation Are
                                        Not As Significant As Projected



                                                                                             Appendix IV

                                     Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Potential; $17.5 million, representing 389.7 FTEs1 (see page 3).

Methodology Used to Measure the Reported Benefit:
To determine the potential savings created by reducing toll-free telephone hours of operation, the
IRS used FY 2004 data and calculated the number of FTEs that could be saved. The IRS data
used were recorded in half-hour increments that needed to be converted into hours to calculate
the FTEs. However, the IRS did not convert the night differential2 calculation into hours as it
had for all other calculations. The IRS estimated potential savings of $18.4 million or
409.7 FTEs. When the night differential is converted to hours, the savings would be
$17.5 million or 387.8 FTEs, a difference of $900,000 or 21.9 FTEs.
In addition, during the preparation and presentation of the recommendation to reduce toll-free
telephone hours of operation, more current data had become available. The IRS did not update
its data to include the more current information in its proposal. Using FY 2005 data, the
potential savings would drop from $18.4 million or 409.7 FTEs to $914,000 or 20 FTEs, a
difference of $16.6 million or 367.8 FTEs.
Therefore, the total outcome measure after combining the $900,000 (21.9 FTEs) from the night
differential error and the $16.6 million (367.8 FTEs) from the use of outdated data equals
$17.5 million (389.7 FTEs).




1
  An FTE is a measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable
days in a particular fiscal year. For FY 2006, 1 FTE is equal to 2,080 staff hours.
2
  Night differential is the additional salary paid as incentive for regularly scheduled work performed between
6:00 p.m. and 6:00 a.m.
                                                                                                       Page 13
                                  The Savings Used to Recommend Reducing
                                  Toll-Free Telephone Hours of Operation Are
                                         Not As Significant As Projected



                                                                                                   Appendix V

          Comparison of Select Performance Measures
              for the 2003–2006 Filing Seasons                                                 1




    Customer Account Services Toll-Free2                  2003            2004             2005             2006
    Level of Service3                                    82.4%            85.0%           81.8%            82.0%
    Average Speed of Answer (in seconds)4                  175             184              255              213
           Tax Law                                         194             163              188              223
           Tax Accounts                                    139             203              299              215
    Customer Account Services Function
                                                          15.0             16.8             15.6            14.6
    Assistor Calls Answered (in millions)
    Assistor Calls Answered per Toll-Free
                                                          5,037           5,454            5,434            5,054
    Telephone Operations Direct FTEs5
    Total Blocked Calls6                                731,657          514,569         920,787         1,336,721
           Busy Signals                                 244,982          150,027         296,736          215,150




1
  Due to changes in the methodology the IRS used to capture toll-free telephone data, the totals for previous filing
seasons in this chart may not equal the totals presented in previous Treasury Inspector General for Tax
Administration reports. The filing season is the period from January through mid-April when most individual
income tax returns are filed.
2
  “Customer Account Services Toll-Free” refers to the suite of 16 telephone lines the IRS refers to as “CAS
Toll-Free.” Performance data are for Customer Account Services Toll-Free telephone assistance lines from
January 1 through April 17, 2006, and comparable dates in prior years.
3
  Level of Service is the IRS’ primary measure of providing taxpayers with access to a live assistor.
4
  Average Speed of Answer is the average number of seconds taxpayers waited in the queue (on hold) before
receiving services.
5
  An FTE is a measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable
days in a particular fiscal year. For FY 2006, 1 FTE is equal to 2,080 staff hours.
6
  A blocked call is one that cannot be connected immediately because either no circuit is available at the time the
call arrives (the caller receives a busy signal) or the system is programmed to block calls from entering the queue
when there are more callers waiting to speak to a live assistor than a predefined threshold (the caller receives an
announcement to call back at a later time).
                                                                                                            Page 14
                                   The Savings Used to Recommend Reducing
                                   Toll-Free Telephone Hours of Operation Are
                                          Not As Significant As Projected



    Customer Account Services Toll-Free2                   2003            2004             2005             2006
          Courtesy Disconnects7                          429,943         354,892          624,051         1,121,571
          Selected Expanded Access8                      56,732            9,650            N/A              N/A
    Percentage of Primary Abandons9 to
    Total Attempts10                                      12.9%           13.7%            12.8%            14.3%
          Primary Abandons (in millions)                    5.6             7.1              5.5              6.2
          Total Attempts (in millions)                     44.0            51.7             43.1             43.7
Source: IRS Enterprise Telephone Data Warehouse.




7
  Courtesy disconnects were introduced in FY 2003; they occur because the system has been programmed to block
calls from entering the queue when the queue backs up beyond a defined threshold and the caller receives a recorded
announcement to call back at a later time.
8
  The Selected Expanded Access is a system that allowed a taxpayer to receive automated services in lieu of a busy
signal during periods of peak demand. It was discontinued in FY 2005 because network prompting now identifies
upfront where to route the calls and sends them directly to assistors. N/A = not applicable.
9
  The IRS refers to a call that disconnects before reaching the queue as a primary abandon.
10
   Due to rounding for all figures in the table, calculations using the amounts in the following section will not total
the percentages listed here.
                                                                                                             Page 15
          The Savings Used to Recommend Reducing
          Toll-Free Telephone Hours of Operation Are
                 Not As Significant As Projected



                                                 Appendix VI

Management’s Response to the Draft Report




                                                       Page 16
The Savings Used to Recommend Reducing
Toll-Free Telephone Hours of Operation Are
       Not As Significant As Projected




                                             Page 17
The Savings Used to Recommend Reducing
Toll-Free Telephone Hours of Operation Are
       Not As Significant As Projected




                                             Page 18
The Savings Used to Recommend Reducing
Toll-Free Telephone Hours of Operation Are
       Not As Significant As Projected




                                             Page 19
